<html>
<title> - IMPROVING TRANSPARENCY AND ACCESSIBILITY OF FEDERAL CONTRACTING DATABASES</title>
<body><pre>[Senate Hearing 111-277]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-277
 
                IMPROVING TRANSPARENCY AND ACCESSIBILITY
                    OF FEDERAL CONTRACTING DATABASES

=======================================================================



                                HEARING

                               before the

              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
53-844                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK PRYOR, Arkansas                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


              AD HOC SUBCOMMITTEE ON CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Chairman
CARL LEVIN, Michigan                 ROBERT F. BENNETT, Utah
THOMAS R. CARPER, Delaware           SUSAN M. COLLINS, Maine
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
JON TESTER, Montana                  JOHN McCAIN, Arizona
PAUL G. KIRK, JR., Massachusetts     LINDSEY GRAHAM, South Carolina
                     Margaret Daum, Staff Director
                Molly Wilkinson, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Bennett..............................................     3
Prepared statements:
    Senator McCaskill............................................    35
    Senator Bennett..............................................    37

                               WITNESSES
                      Tuesday, September 29, 2009

William T. Woods, Director, Acquisition and Sourcing Management, 
  U.S. Government Accountability Office..........................     5
Adam Hughes, Director, Federal Fiscal Policy, OMB Watch..........     8
A.R. Trey Hodgkins, III, Vice President, National Security and 
  Procurement Policy, TechAmerica................................    10
Vivek Kundra, Federal Chief Information Officer and Administrator 
  for Electronic Government and Information Technology, Office of 
  Management and Budget..........................................    23

                     Alphabetical List of Witnesses

Hodgkins, A.R. Trey, III:
    Testimony....................................................    10
    Prepared statement...........................................    68
Hughes, Adam:
    Testimony....................................................     8
    Prepared statement...........................................    55
Kundra, Vivek:
    Testimony....................................................    23
    Prepared statement...........................................    74
Woods, William T.:
    Testimony....................................................     5
    Prepared statement...........................................    46

                                APPENDIX

    Charts submitted by Senator McCaskill........................    39
Questions and responses submitted for the Record from:
    Mr. Kundra...................................................    80


                       IMPROVING TRANSPARENCY AND

                        ACCESSIBILITY OF FEDERAL

                         CONTRACTING DATABASES

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 2009

                                   U.S. Senate,    
          Ad Hoc Subcommittee on Contracting Oversight,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill and Bennett.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Chairman McCaskill. Good morning. We welcome the witnesses 
and everyone to the hearing this morning.
    This hearing will now come to order. We are here today to 
discuss the future of the Federal Government's contracting 
database.
    I think I will start by stating the obvious. This is not a 
wildly exciting topic. We are not going to have banks of 
television cameras or eager crowds lined up to see what is 
happening at this hearing. I saw no linestanders. I saw no rush 
to grab a seat as the seats became available this morning.
    The idea of spending some time talking about FPDS, ORCA, 
CCR, PPIRS, or ``Peepers,'' and the IAE is enough to send most 
people screaming for the exits, but these acronyms are 
fundamental to the way government does business. In 2008, the 
Federal Government spent over $500 billion in contracts, with 
thousands of different companies, to acquire everything from 
pens to planes to people.
    Electronic systems and databases are used in every phase of 
the contracting process. Government employees use these systems 
to solicit requirements, review offers, evaluate vendors, and 
create and administer contracts. Companies use the systems to 
find and register for opportunities, track when and how and 
what the government is acquiring, and view their own 
performance. And, the public should use these systems to 
understand what the government is doing with their money.
    There are now more than a dozen Federal databases and 
systems with information relevant to Federal contracting. They 
are managed by at least five different agencies and supported 
by at least eight different contractors.
    In recent years, these systems have been the subject of 
criticism from Federal auditors, members of the public and 
Congress for being difficult to use, containing incomplete 
records, for not being available or accessible to the public 
and for not containing the timely, accurate information 
necessary to both the government, vendors and the people who 
are paying the bills.
    In the last 2 years, the government has even created a 
whole new system, USAspending.gov, simply to try to translate 
information contained in older databases, to make it more 
accessible to the public.
    To address many of these problems, the Federal Government 
has moved forward with the creation of the Integrated 
Acquisition Environment (IAE). The IAE brought together eight 
systems under management of the IAE Program Management Office 
at GSA. This has already had significant advantages of 
streamlining. For example, the IAE has already brought all the 
help desk services together under a single contractor.
    The government now plans to award a contract called the 
Architecture Operations Contract Support (AOCS), to begin to 
consolidate the different databases into one system. When 
implemented, it is envisioned that the AOCS contractor will be 
responsible for designing a new enterprise architecture and 
then gradually moving each of the databases into the 
architecture. Vendors and the government will access the 
different services from one single entrance point. Members of 
the public will be able to access the system using a password.
    The AOCS contract does not--let me repeat--does not include 
improvements to the underlying database systems. Instead, the 
government will also award multiple contracts to improve and 
enhance the software throughout the life of the AOCS contract.
    The AOCS contract was supposed to have been awarded at the 
end of September. Last week, GSA pushed back the award date to 
the end of October. So we are still at the very early stages of 
the development of this project. Now is the time for us to look 
forward, to ask some tough questions, before the government 
gets embroiled in a costly contract that may not be the best 
way forward.
    We are here today to learn from representatives of the key 
users of these systems: Industry, the public, and government. 
We are trying to find out what the consolidated contracting 
system of the future should look like.
    We will also hear from Vivek Kundra, the President's Chief 
Information Officer, about whether and how the new Integrated 
Acquisition Environment will improve the quality, transparency, 
and usability of acquisition information.
    We will discuss barriers to achieving a unified, 
simplified, publicly-accessible contracting system, like the 
technological hurdles presented by migrating legacy systems 
onto a new architecture and the government's Byzantine 
management structure for the project. Wait until you see that 
chart. Talk about giving you a headache.
    I look forward to a constructive discussion of these 
questions today. I would also like to take this opportunity to 
welcome the new Ranking Member of the Subcommittee, Senator Bob 
Bennett, who has a long record of trying to bring common sense 
and a business perspective to the way we spend the public's 
money. I think he will be an incredible asset to the work of 
this Contracting Oversight Subcommittee, and I look forward to 
working with him closely in trying to make government more 
responsive to the people, with a better sense of use of money 
from a business perspective.
    I now yield to Senator Bennett for his statement.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you very much, Madam Chairman, both 
for your statement and your warm welcome. I appreciate it and 
look forward to the hearing and the opportunity to work with 
you to try to solve some of these problems.
    I also want to thank Senator Collins for her graciousness 
in welcoming me to the Committee and assigning me to this 
particular Subcommittee. I know that it was something that she 
enjoyed doing and was a bit of a sacrifice for her to give this 
one up, but I am delighted that she was willing to trust me 
with this responsibility.
    I have a formal opening statement, which I would like to 
submit for the record, but also a few personal comments in 
addition to that.
    There is a sense of deja vu for me, for two reasons. When I 
graduated from college, my first job was as a purchasing agent. 
So I was buying things and dealing with people who wanted to 
sell me things and realized the importance of having accurate 
information on both sides of the conversation.
    Since that time, I have run businesses and, during that 
period of time, watched them go through the agony of shifting 
from paper-based systems for information over to the digital 
age, and I cannot think of a single transition that was smooth 
or that was cheap. In both instances, there was a great deal of 
angst on the part of those who had to shift to something new, 
and there was a great deal of concern on the part of those who 
had to pay for the equipment and the software engineers and the 
writing of programs to the something new.
    And, always, in every one of those transitions, there was 
an understandable human reaction which is: Can we not put this 
off? Wait a minute. This is too hard. Can we not slow down and 
put it off?
    Of course, in the business world, the answer to that 
question is no, because your competitor is doing it whether you 
are or not, and, if you do not make the switch so that you have 
all of the power of IT on your side, you are going to lose 
customers, market share, and money.
    In the government, there is not quite the same pressure, 
and I have the feeling that there have been some silo kind of 
activities going on across the government, that: Well, this is 
too hard. Let's slow it down a little.
    Then in another agency: Well, we want to do it our way, and 
it is also kind of hard, and we will try something else--so 
that you end up with what I think we are going to see when you 
put up the chart to which you refer, a situation that is opaque 
both for the vendor, who has no idea what he has got to deal 
with in order to sell his product, and with the buyer, who has 
no real understanding of everything that is out there from 
which to make a choice.
    That ends up costing the government money and, more 
important, costing the government value because I know from my 
State--and I am sure you do from yours--a number of companies 
who say: I just do not deal with the Federal Government. I do 
not even try to sell to the Federal Government because the 
process is so impenetrable, it is not worth it.
    Those hardy souls who say I will deal with the government 
are probably providing good products, but they are, in a way, 
competing in a restricted environment because some of the 
competitors who might be able to provide better value for the 
government are simply not playing, and the Federal contracting 
process is the reason.
    So what I am hoping for today, Madam Chairman, is that we 
get an understanding of exactly what the state of affairs might 
be right now. Then, we get a vision of who owns it and is 
willing to deal with it, so we can move toward the ultimate 
goal of transparency on both sides of the deal, that the 
vendors know what it is they are getting into and the buyers 
know exactly the wide range of products that are available.
    So I thank you for calling the hearing and appreciate the 
opportunity to be a part of it.
    [The prepared statement of Senator Bennett follows:]
    Chairman McCaskill. Thank you, Senator Bennett.
    Our first panel of witnesses brings three different 
perspectives to the issue that we are going to discuss this 
morning. Bill Woods is Director of Acquisition and Sourcing 
Management at the U.S. Government Accountability Office (GAO), 
Adam Hughes is the Director of Federal Fiscal Policy at OMB 
Watch, and Trey Hodgkins is the Vice President for National 
Security and Procurement Policy at TechAmerica, representing a 
number of people who endeavor every day to do business with the 
Federal Government.
    It is the custom of this Subcommittee to swear in all 
witnesses that appear before us. So, if you do not mind, I 
would ask you to stand.
    Do you swear that the information that you will give before 
the Subcommittee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Woods. I do.
    Mr. Hughes. I do.
    Mr. Hodgkins. I do.
    Chairman McCaskill. The witnesses have stated in the 
affirmative.
    We will be using a timing system today. We would ask that 
your oral testimony be no more than 5 minutes. Your written 
testimony, of course, will be printed in the record in its 
entirety.
    And, Mr. Woods, welcome to the hearing.

  TESTIMONY OF WILLIAM T. WOODS,\1\ DIRECTOR, ACQUISITION AND 
   SOURCING MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Woods. Thank you, Chairman McCaskill and Ranking Member 
Bennett. Thank you for inviting me to testify this morning 
about the government's contract data systems.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Woods appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    Chairman McCaskill, you are absolutely right in terms of 
pointing out this is not a wildly exciting topic, but, 
nevertheless, it is extremely important. The government spends 
in excess of half a trillion dollars purchasing all sorts of 
goods and services to make the government run, and it is 
important that we know where that money is going and how it is 
being spent.
    There are a number of stakeholders that need to know that 
information, starting, of course, with the Congress. The 
agencies themselves need to know how they are spending their 
money. The oversight community, of which I am one 
representative, needs to know that as well. And, the general 
public has a stake in that answer as well.
    So it is extremely important that we get answers to the 
kinds of questions that you have both put on the table this 
morning.
    We have looked at a variety of systems. We have used many 
of the systems that you mentioned earlier, but we have not 
evaluated all of them in depth. There are three, however, that 
we have taken a close look at and which I would like to focus 
on this morning. Those three are:
    The Federal Procurement Data System (FPDS), the latest 
version of that is the Federal Procurement Data System Next 
Generation (PDS-NG), and you will hear a lot about that today. 
That is really the government's primary contracting database. 
It is the backbone, if you will, of a number of other systems 
that use that system. For example, USAspending.gov relies on 
the information in the Federal Procurement Data System.
    The second system that I will cover today will be the Past 
Performance Information Retrieval System, which, for good or 
bad, goes by the acronym of PPIRS, and you will be hearing a 
lot about PPIRS as this session progresses. That is, as the 
name suggests, the central collection point for past 
performance information on all the government's contractors. A 
number of systems feed into that PPIRS system.
    And, the third that I will focus on today will be the 
Excluded Parties List System (EPLS), and that is the system 
that keeps track of those entities that have been either 
suspended or debarred from doing business with the government. 
Of course, it is important that not only do we know about the 
past performance of contractors, but we need to know those that 
have been excluded to make sure that we do not inadvertently 
award contracts to those entities.
    Let me start with just an overall observation that the 
deficiencies that we have found in many of the systems that we 
look at fall basically into three categories. One is poor data 
quality, second is a lack of data submission, and the third are 
inadequate systems capabilities. Not all of the systems that we 
have looked at suffer from those problems, but we have found 
that a number do, and it is a good way for us to keep track of 
what we are looking at.
    In terms of data quality, the system that everything relies 
on and that we rely on quite a bit as users is the Federal 
Procurement Data System. That system started in 1978, and since 
right after that system started we have repeatedly issued 
report after report after report, citing shortcomings in that 
system, in the data quality.
    What do I mean by data quality? Accuracy and timeliness are 
the two essential elements. And is the information reliable? 
Unfortunately, too often, the answer that we have found as 
users is no, the system is not reliable.
    We have issued recommendations over the course of many 
years. In large part, those recommendations have been 
implemented by the agencies, either the Office of Management 
and Budget (OMB), or the General Services Administration (GSA). 
And, to be truthful, the system is better now than it used to 
be, but it is still not where it needs to be.
    And, how do we know that? We know that because we get out 
and we pull contract files. We go to locations where the 
contracts are, and we compare the information that is in the 
contract file with the information that is in the Federal 
Procurement Data System, and we find mismatches. That is how we 
know that those systems are unreliable.
    What are the consequences for us as users of those systems? 
Sometimes we have to go to different sources of information, 
such as pulling contract files in order to complete the work 
that you, the Congress, have asked us to do. Sometimes we have 
to choose different methodologies in order to conduct the work. 
And then, there have been cases in the past where we simply 
have not been able to do the work that you, the Congress, have 
asked us to do.
    One example is we were asked to look at a pilot program to 
use simplified acquisition procedures at the Department of 
Defense, and we found that the data were so unreliable that we 
simply could not complete that. We could not answer that 
question. We could not tell you how that pilot program was 
being conducted. That is the consequence of having unreliable 
data in the system.
    As I said, we have made numerous recommendations. The 
system is better now for having implemented many of those 
recommendations and because of the hard work of those in the 
Executive Branch who are trying to make the system work. But 
problems remain, and I just want to cite one example.
    There are a couple of examples, cited in the testimony. Let 
me just mention one of them--time and materials contracts. We 
found in looking there at time and materials contracts, that 
some people are coding those as fixed-price contracts when they 
really are not. The labor rate may be fixed, but the total 
amount that the government is going to expend on that time and 
materials contract is not fixed. So it is not correct to code 
that as a fixed-price contract.
    Let me get to data submission problems, and here again we 
find problems with the Federal Procurement Data System. Just 
one example: This Subcommittee, or actually the full Committee, 
asked us to look at the Department of Homeland Security's major 
systems, and the contracts related to those major systems. We 
tried to use the Federal Procurement Data System to identify 
what those major systems were. Even though the Federal 
Procurement Data System has a field to identify the major 
system that a contract is associated with, many times we found 
that field was left blank.
    So we simply could not take the same approach that we would 
have. We had to go to the Department of Homeland Security and 
ask them to construct a list of their major programs.
    Now that was frustrating for us. It took us more time. But, 
more importantly, it imposed a burden on the Department. It is 
something that the Department did not have to do. So the 
Department had to divert resources, in order to allow us to 
perform the work. That is one of the consequences.
    There are other examples as well in terms of lack of data 
in the system. For example, we, at the Congress's request--
actually it was a statutory mandate--were looking at contracts 
in Iraq and Afghanistan. Everyone wants to know: How many 
contracts are there? How much are we spending? Who is getting 
the money? We could not answer those questions using the 
Federal Procurement Data System.
    Let me turn to another system, the Past Performance System, 
and give you some examples of lack of information in that 
system.
    We issued a report in April of this year that found that 
only 31 percent of contracts that were required to have past 
performance information in that system had the information, 
only 31 percent.
    We also found that a key piece of information, i.e., 
terminations for default were not routinely entered into that 
system. And, you will see in our statement we have one example 
where a huge contract was awarded to a contractor that had 
already defaulted on a previous contract and then went on to 
default on the contract that was subsequently awarded. That 
should have been discovered through use of the Past Performance 
System, and it was not.
    System capabilities: The system that I would like to cite 
there is the Excluded Parties List System. We looked at that 
system in depth in 2005 and identified what we thought was a 
serious deficiency, and that is that for the contractors that 
were listed in that system, there was no unique identifier; 
names only, but no unique identifier. So we recommended that 
the agency require as a required field that a number be 
entered.
    The Administration agreed with that recommendation. They 
implemented that recommendation. But, this year, we went back 
and looked again to see whether contractors that were on that 
list were nevertheless getting contracts, and we found that 
they were. And there were still some systematic deficiencies in 
the system. Let me just cite what I mean by that.
    The system primarily uses a word search system that 
requires the user to enter the name of the company. XYZ, Inc. 
Company, for example. But if you leave out the comma, you get a 
different result. So it is not designed to accommodate that 
sort of inadvertent error by the user.
    So, again, we are asking for GSA to take specific action in 
order to be able to address that. So far, what they have done 
is to add a pop-up warning to users of the system that reminds 
them that they need to enter the name exactly. We are hoping 
that they can do more in order to make that system more 
reliable, in order for users to be able to ensure that 
contractors that are debarred from Federal contract do not, 
nevertheless, get awards.
    Let me stop there, and I would be happy to take questions 
as the hearing progresses. Thank you.
    Chairman McCaskill. Thank you, Mr. Woods. Mr. Hughes.

 TESTIMONY OF ADAM HUGHES,\1\ DIRECTOR, FEDERAL FISCAL POLICY, 
                           OMB WATCH

    Mr. Hughes. Chairman McCaskill, Ranking Member Bennett, my 
name is Adam Hughes, and I am the Director of Federal Fiscal 
Policy at OMB Watch, an independent nonpartisan watchdog 
organization. Thanks very much for inviting me to testify here 
today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hughes appears in the Appendix on 
page 55.
---------------------------------------------------------------------------
    OMB Watch was founded in 1983 to remove the veil of secrecy 
from the White House Office of Management and Budget and has 
spent over 25 years advocating for government accountability, 
transparency and access to government information and citizen 
participation in governmental processes.
    OMB Watch has a long history of developing transparency, 
easily accessible and intuitive systems for promoting and 
disseminating government data to the public. With the creation 
in 1989 of the Right to Know Network (RTKNet), a free 
searchable service of government about toxic chemical releases 
and environmental health hazards, to our work in 2006 creating 
FedSpending.org, a free online searchable web site that gives 
anyone easy access to Federal spending data, including 
contracts data, OMB Watch has been at the forefront of work to 
make Federal data more accessible and transparent.
    This hearing is being held at a pivotal time. Legislative 
reforms in the 110th and 111th Congress, increased interest and 
actions from the current Obama Administration, and additional 
committees and commissions investigating Federal contracting 
practices, all point to significant changes on the horizon in 
the Federal contracting process.
    At the same time, new technologies are allowing a variety 
of audiences to easily access, manipulate, and analyze data 
delivered through machine-readable formats, like RSS, ADAM and 
APIs. These new dissemination systems are slowly beginning to 
seep their way into the Federal Government, which is 
positioning itself to take advantage of this type of data-
sharing, particularly with the launch of the new web site 
Data.gov.
    This confluence of increased interest in contracting reform 
and technology innovation should result in developing a state-
of-the-art one-stop shop for contracting data and information. 
This system should ideally consist of distributed databases 
that contain quality, relevant, and timely machine-readable 
data about the entire contracting process, linked together in 
one intuitive interface.
    Unfortunately, this vision is a long ways off as there is a 
lot of work to do to fix the current system, which is 
disjointed, antiquated--at times, redundant--and extremely 
difficult to use. The menagerie of data systems do not deliver 
accurate, timely and useful information, and they create 
significant obstacles for use by government contracting 
officials and watchdog organizations. Making matters worse, 
there are problems with both the current structure, or lack 
thereof, of Federal contracting databases as well as the data 
contained within those systems.
    Based on our experience, OMB Watch believes that all 
Federal contracting data needs to be stored in a distributed 
database system that is linked together by machine-readable 
data, is web-accessible and fully searchable and is designed to 
meet the needs of contracting officials and oversight personnel 
while also providing public access to this information. The 
best option for achieving this is to build out the 
USAspending.gov web site interface to include other contracting 
data, including performance and evaluation data, suspension and 
debarment lists, and additional information related to the 
contracting process.
    USAspending.gov already has an open data architecture that 
allows for sharing and disseminating information in different 
formats including HTML, ASCII and XML. This architecture is 
what will allow for the development of new data analytic tools 
to be created, like the recently launched IT dashboard. A 
distributed database system would create a one-stop shop for 
contracting data and streamline many parts of the data 
collection process, simplify the job of contracting officials 
and oversight personnel, reduce redundant data and web site 
maintenance costs, and present a more cohesive, thorough 
picture of the Federal contracting process to the public.
    While the technology exists to support such a solution, 
there would still need to be considerable effort to streamline 
the contractor performance reporting system. Simply funneling 
performance data from multiple disparate systems that use 
different metrics to evaluate contractor quality to a single 
location does not solve all the problems.
    Particularly given the current implementation of yet 
another contracting database, required under the 2009 National 
Defense Authorization Act, a standardized and more robust 
contractor performance data collection system needs to be 
developed. Perhaps an even larger problem will be to establish 
a reliable, publically-available, unique organizational 
identifier that can allow data from disparate databases to be 
easily combined and compared.
    The Federal Government currently contracts out the work of 
creating, assigning, and updating unique organizational 
identifiers to a private company, Dun and Bradstreet. Allowing 
a private company to provide such an important unique 
identifier for all entities receiving funds from the Federal 
Government is extremely problematic as it subjects that 
identifier system to the policies of a private company and its 
business needs. While not necessarily malicious, this 
arrangement can cause government data to be presented in 
misleading or, at times, incorrect ways or simply not made 
available to the public at all.
    As the government progresses to adopt new and emerging 
information technologies, including working to link disparate 
data systems together, there must be reliable, publically-
available identifiers. OMB should head up an interagency task 
force to develop the schema for such identifiers, starting with 
organizational identifiers, and Congress should provide 
oversight to make sure this process proceeds expeditiously.
    There is a long way to go to overcome the many obstacles to 
creating a more efficient and effective government contracting 
data system, yet the Integrated Acquisition Environment 
provides the opportunity to deliver such a system if it is done 
correctly. In creating a contracting data system for the 
future, much more time and resources need to be spent on 
developing easy mechanisms for viewing, analyzing, exporting 
and sharing Federal contract data. This will take consistent 
attention and leadership from both Congress and the Obama 
Administration in order to make sure that a distributed 
database system can become a reality.
    Thanks very much for inviting me here, and I look forward 
to your questions.
    Chairman McCaskill. Thank you. Mr. Hodgkins.

   TESTIMONY OF A.R. TREY HODGKINS, III,\1\ VICE PRESIDENT, 
     NATIONAL SECURITY AND PROCUREMENT POLICY, TECHAMERICA

    Mr. Hodgkins. Good morning, Madam Chairman and Ranking 
Member Bennett. My name is Trey Hodgkins. I am the Vice 
President for Procurement Policy and National Security at 
TechAmerica, which is a trade association representing 
approximately 1,500 companies and their millions of employees.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hodgkins appears in the Appendix 
on page 68.
---------------------------------------------------------------------------
    I am pleased to bring to you the technology and IT sector 
perspective on Federal contracting databases. I am going to 
address those in three different areas: First, some general 
discussion topics about proposals that we have seen in the past 
and that are still out there, some comments about the existing 
databases and then a few recommendations.
    I would like to start with a generic statement, to say that 
to best use these databases we must focus on the goals that 
they serve, which is to inform the acquisition workforce 
decisions, improve the efficacy of the acquisition process and 
achieve best value for the taxpayer.
    Companies are primarily concerned that government 
contractor databases will reveal information about their 
products or services and how they bring those products or 
services to the market. Another concern is that unsubstantiated 
allegations of contractor wrongdoing will be published.
    Transparency that allows unrestricted public disclosure of 
proprietary or sensitive contracting data does not improve the 
acquisition process or inform the contracting workforce. 
Instead, these proposals risk disclosing source selection, 
intellectual property or proprietary data to global 
competitors, directly or indirectly exposing national and 
homeland security information, and using information out of 
context that would negatively impact the acquisition process 
and the competitive position of companies that do business with 
the government.
    For government, the negative impact on the acquisition 
process includes a reduction in competition. Many companies 
offering commercial or commercial off-the-shelf items would 
simply be unable or unwilling to accept the kinds of risks I 
just described.
    In another example, posting an unredacted contract could 
identify the location where work is to be performed and reveal 
crucial components of our national and homeland security. If 
data about program capabilities were subject to public 
disclosure, adversaries could evaluate the supply chain, 
identify critical production components, and, by attacking that 
component, destruct our security. Aggregated data would also 
allow adversaries to discern and reverse engineer our 
capabilities and identify our weaknesses.
    From a corporate perspective, public disclosure of data 
would expose intellectual property, corporate sensitive and 
technical data to industrial espionage. Corporate competitors 
can aggregate data such as pricing methods and weaken the 
competitive posture of a company.
    Publishing mere allegations rather than final 
determinations of wrongdoings also undercuts the fundamental 
due process rights for contractors. Such proposals assume that 
contracting officers would have the knowledge to make an 
informed legal decision from the allegation. There is a 
substantial risk that negative decisions would be made based 
upon allegations that are later found to be without merit.
    It is worth noting that contractors did not oppose the 
Chairman's amendment last year that was adopted as part of the 
final version of the Defense Authorization Act. That is because 
it struck a balance between sharing data, protecting 
proprietary information and setting reasonable expectations 
about the contracting community.
    In the same vein, TechAmerica does not oppose public 
disclosure as long as existing protections remain in force. 
These protections would include the Freedom of Information Act, 
the Trade Secrets Act, common law decisions and privileges 
regarding protection of sensitive information.
    I would like to turn now to existing databases and note 
that the government has an alphabet soup of databases capturing 
and tracking government contracting, and these databases 
support critical functions of government contracting like 
evaluating past performance and determining responsibility.
    Contractors generally find that these databases are 
inconsistent. They capture different data elements. They employ 
differing processes and rules and too frequently contain 
outdated, incomplete, or inaccurate data.
    An example of this is the recent uptick in report cards for 
periods of performance of more than 1 year ago. Contractors are 
worried they will not receive accurate ratings so long after 
the performance period. Or, worse, this will become a check-
the-box exercise, and someone who may have no knowledge of the 
contract is completing the report card.
    The practical consequences of having outdated, incomplete, 
or inaccurate data is harm to the government from an unclear 
picture of bad actors in the contracting community and harm to 
good contractors whose performance goes unnoticed in 
evaluations for other work.
    Another concern expressed by companies is that data is 
collected using inconsistent criteria, that the results are 
evaluated using inconsistent metrics and that the score cards 
use inconsistent measurements.
    Because of these issues, many government agencies have 
resorted to placing requirements on bidders to pay for a past 
performance report from a third party commercial vendor. Any 
effort to reform government contract databases should include a 
prohibition on this practice.
    Finally, my recommendations: TechAmerica commends current 
efforts related to the Integrated Acquisition Environment 
(IAE). It espouses goals that include consistency of data, 
uniform standards for greater interoperability, and 
consolidation of data and data sources. To ensure success, 
greater emphasis on implementing applications and systems with 
the IAE standards will be required.
    Finally, we must ensure that efforts to develop government 
contractor databases have a clear plan about how to analyze and 
use the data we collect in a meaningful way. We hope that as 
you deliberate this issue any proposals provide leadership and 
direction for data collection efforts that achieve the goals I 
outlined in the beginning of my testimony: To inform the 
decisions of the acquisition workforce, to improve the efficacy 
of the acquisition process and to achieve best value for the 
taxpayer.
    Thank you.
    Chairman McCaskill. Thank you, Mr. Hodgkins.
    Let's take a look at the lay of the land here as we begin. 
GSA is in charge of managing what has been called the 
Integrated Acquisition Environment (IAE). The IAE is made up of 
approximately eight different databases containing information 
on Federal contracting which GSA hopes eventually to bring 
under one roof.
    Now let's look what the IAE currently includes and the 
alphabet soup of public and non-public information contained in 
these systems used by contracting officials, vendors, the 
business and contracting communities and, to a lesser extent, 
the general public:
    There is the Central Contractor Registration (CCR), where 
vendors wishing to do business must register.
    There is the Federal Agency Registration, FedReg, for 
Federal entities that buy from and sell to each other, which 
most people out there in the real world do not even understand 
that is actually going on. Actually, since I have been here, I 
have found instances where agencies are advertising to get 
other agencies to buy from them, all within the Federal 
Government, which is weird. And, they can make money doing 
that, which is even weirder.
    The Excluded Parties List System (EPLS), to identify 
parties excluded from receiving Federal contracts.
    The Online Representations and Certifications Application 
(ORCA), for vendors to enter representations and certifications 
regarding contracting records.
    The Past Performance (PPIRS), providing access for Federal 
acquisition officials to review past performance of contracts, 
on contractors.
    And, the Federal Procurement Data System (FPDS), which 
contains all Federal contracting data, supposedly, over $3,000 
throughout the Federal Government--and that is a huge 
supposedly, like all capital letters, 15 exclamation marks.
    These are just some of the systems included in the IAE. The 
last one that I mentioned has been obviously the subject of a 
number of critiques, which Mr. Woods referred to, about its 
usability but also about the reliability of the information 
that is contained in this.
    Would each of you describe which of these systems do you 
think does the best job and which of these systems do you think 
does the worst job from your perspective in terms of 
accountability and, obviously, in terms of your members and 
companies utilizing the databases?
    Mr. Woods.
    Mr. Woods. Well, certainly. We have not looked at all of 
these systems. So I really cannot respond to the question about 
which is the best and which is the worst.
    Chairman McCaskill. Of the ones that you have looked at, 
the three you mentioned, which do you think is doing the best 
job in terms of reliability and access and which do you think 
has got the most ground still to cover?
    Mr. Woods. Sure. The one that suffers the greatest, I 
think, is the Federal Procurement Data System, and that is the 
one that supports largely all the rest of the systems. It is 
the one that we use the most. So it is the one that we have the 
most user experience, and we know that it suffers from 
reliability issues.
    In terms of reliability, the suspension and debarment list, 
the Excluded Parties List System, of the three that we have 
looked at, probably does not suffer that same issue in terms of 
reliability. If you are able to utilize it, the information is 
there, but it is a question of the techniques and the methods 
for accessing that system.
    So I put those two at the ends of the extremes.
    Chairman McCaskill. You know it was interesting to me when 
you said that. I mean as somebody who takes advantage of the 
wide world of search capabilities now that are, frankly, 
amazing, and if you look back 10 years ago, when an average 
person wanted to search something on the internet, how 
difficult it was and how easy it is now.
    Have you had any kind of information from the Excluded 
Parties List (EPLS), why they have not refined the search 
capability? The idea that a comma would exclude from a search 
someone who has been found to be disbarred from doing business 
with the government, that is a big deal.
    Mr. Woods. It is a big deal, and it is a bit surprising in 
this day and age because there are other approaches that are 
used in other contexts--you mentioned the other web system--
that may not suffer from that same flaw.
    In our latest report, we made about half a dozen 
recommendations to the General Services Administration whose 
job it is to run that system. They said they agreed with all 
those recommendations, told us what they were doing, but when 
we really looked at their responses, we came away thinking that 
they really were not planning to do much more than they were 
already doing, and so we kept all of our recommendations open. 
We declined to close out any of the recommendations based on 
their responses.
    Chairman McCaskill. OK. Mr. Hughes.
    Mr. Hughes. I do not want to say that there are not 
problems with FPDS, but if you cannot find something in FPDS 
you can find it on USAspending.gov. So I am not as concerned 
with the front end problems with FPDS. So I would probably not 
say that is the worst.
    EPLS has, we have talked about, the search problems. In 
addition to the actual searches not working, you actually have 
to do two separate searches because any people, any companies 
that have been in EPLS and that now have come off the list are 
included in an archive section. But in order to search the 
archive section, you have to reenter your search. And, there is 
no reason why you cannot do one search and have a full results 
kicked back to you that says here are the active ones and here 
are the inactive ones.
    So the problem with the DUNS number and the name also 
requires another search. So you are actually talking about 
having to do four searches just to find whether one company has 
ever been listed in EPLS.
    On the other hand, it is public. So I think I have to hold 
it a little bit above the PPIRS system.
    I would say the PPIRS is doing the worst job. There is no 
public access, and even the people within the government who 
have access do not like it for a variety of reasons. So I think 
that is probably the worst on my list because of those reasons.
    Chairman McCaskill. OK. Mr. Hodgkins.
    Mr. Hodgkins. Senator, first, I think you had it right when 
you mentioned in your opening comments that many of these were 
approached in a silo fashion. So, in some sense, we are 
comparing apples to oranges. They were not necessarily intended 
to share data between systems, and we are trying to make them 
do that. So there are some differences that those issues cause 
problems with.
    Generally speaking, our members are focused on PPIRS 
because that is where their past performance data is collected, 
and it serves as a repository. To my knowledge, they are happy 
with their ability to get in and view their records. They, of 
course, cannot see other companies' records. They can make 
comments that become part of the record, about information that 
is put in there about them. And, in our opinion, we would 
prefer that database remain closed to the contracting company 
for the reasons I described earlier.
    Of the other systems, many of these we find to be useful in 
the same way that Mr. Hughes described. USAspending.GOV is the 
public face for FPDS and for our uses and our members' uses 
because they do get in those databases and they look at the 
activities of their competitors. I think that there is, at this 
point, a lack of full data, but it is sufficient for us to find 
a lot of the things that companies are looking for.
    Chairman McCaskill. I find it interesting that the 
companies like PPIRS the best and Mr. Hughes says that in his 
estimation the people who use PPIRS in government do not think 
so much of it. Now that is a disconnect that is maybe more 
troubling than any average person's ability to understand what 
the heck all that means.
    Mr. Hodgkins. If I may, Senator, its use is cumbersome, but 
the data it contains, that is visible and accessible by the 
companies. So from the point of view that it is visible, they 
can see what the government is collecting, they can observe it, 
they can add comments to it, it is helpful and useful for them.
    How user-friendly it is, is a different issue, and they 
have told us that most of these systems are cumbersome and 
difficult to use. And, that is one reason we believe much of 
the data is incomplete.
    Chairman McCaskill. OK. Mr. Bennett.
    Senator Bennett. Thank you very much.
    I have a reaction, sitting here, coming to this issue brand 
new. If I were the CEO of this company, the first question I 
would ask is: Well, why has somebody not taken control of this?
    And, of course, the answer would be: Well, you are the CEO. 
You name somebody.
    So, if I can for three seconds be President of the United 
States, OMB should have ownership of this. It is the Office of 
Management and Budget. I understand that the M in OMB is 
basically silent, that they spend 95 plus percent of their time 
on the B and very little on the M, but this has very 
significant B consequences.
    Now, Mr. Woods, you are the government's watchdog. Mr. 
Hughes, you are an outside watchdog. And, I guess, Mr. 
Hodgkins, you are the dog that is being watched, if I know how 
this works out. [Laughter.]
    What is your reaction to that--we will have the fellow from 
OMB later on--but the very firm statement at the highest level 
saying, OK, fix this, which means take ownership of the 
problem, and I do not have a sense that anybody governmentwide 
has ownership of the problem, and is there anybody other than 
OMB who should do it?
    Mr. Woods. Senator Bennett, if I could speak to that, OMB 
certainly has a role to play here, a very prominent role, and 
in fact there are statutes that have dictated to OMB that they 
are to assume a leadership responsibility.
    However, one of the points that I make in our written 
statement is that there are so many actors involved here, that 
OMB or one of the offices within OMB, the Office of Federal 
Procurement Policy, may set the policy for how systems are 
supposed to work. But, in terms of operationalizing those 
systems, they need to turn to the General Services 
Administration, to the Department of Defense. They need to rely 
on other agencies for input, and there are dozens and dozens of 
agencies that input into the various systems.
    So, unfortunately, we have a situation where OMB may have 
the responsibility for ensuring that these systems work, but, 
in terms of actually getting the work done, they need to rely 
on other agencies to make that happen.
    Senator Bennett. That sounds like a lot of silos to me. Mr. 
Hughes.
    Mr. Hughes. I agree with that assessment. I think I would 
add that it is not, that you certainly hit the problem on the 
head. It is that there is no one in charge or maybe the problem 
is that everyone is in charge.
    But I am not sure OMB can do it alone to fix the problem. 
They do have some abilities to be able to streamline and 
organize from the top, but I think there are two points that 
get to why they are not the end all and be all solution to 
this.
    The first is that a lot of the problems with the way that 
the current systems have been developed is that they were not 
developed with the end user in mind. They were designed to 
input vast amounts of information, but they were not designed 
to export or use that data once it was in there. And, being OMB 
Watch, we kind of have a general reaction to letting OMB be in 
charge of stuff, which is, well, you should get people involved 
who are actually going to use these systems. Almost all the 
time, it is not going to be OMB staff who are using these 
databases.
    The second thing is that I think it might even need to be a 
higher priority than OMB because there has been a number of 
reforms proposed over the last couple of years. One, in 
particular, OFPP had an interagency task force in 2005 that 
recommended changes to the performance----
    Chairman McCaskill. What is OFPP?
    Mr. Hughes. Office of Federal Procurement Policy.
    Chairman McCaskill. OK.
    Mr. Hughes. That recommended changes to the contracting 
performance databases, things like streamlining the evaluation 
process, those sorts of things--nothing even to the point of 
contention where is it public or not, just to get the internal 
systems working better.
    Their report was in 2005. It took almost 4 years to issue a 
proposed rule about implementing some of those changes, and 
this is all within the Executive Branch. This is not getting 
Congress to act. And, even when the rules were proposed last 
year and then this year, they did not capture really the 
essence of what the major recommendations were from the task 
force.
    So, even if we put OMB in charge, there is still lots of 
mechanisms and levers that need to be pulled at the right 
times--just like Mr. Woods said as well, to even move to 
proposed rule, final rule in the FAR and then beyond that into 
the actual implementation with contractors and GSA and others, 
the more mechanical aspects of it.
    So I think you are right, that someone needs to be in 
charge, and I think OMB probably is a good place to head up a 
more focused effort to move this forward, but I do think that 
they are not going to have all the powers and capabilities that 
will be necessary to achieve the right type of system.
    Senator Bennett. I am interested that you think there is 
something higher than OMB.
    Mr. Hughes. The President. I mean you mentioned yourself, 
if the CEO was here, should I appoint somebody? I think that is 
a good way to go, but it also would be a lot more effective if 
the CEO himself or herself came down and said, I want to know 
what has happened this week and this quarter to make this move 
forward.
    I think the Obama Administration has been willing to bring 
that type of, at least at this point, rhetoric to performance 
and data management and using systems that better help 
government do its job, but it needs to be a continual process. 
It cannot be something that you say in January and hope it gets 
done over the next 4 years.
    Senator Bennett. I agree with that, but, having served in 
the Executive Branch, I learned that there is nothing higher 
than OMB.
    Mr. Hodgkins.
    Mr. Hodgkins. Senator, I too would agree with Mr. Woods's 
evaluation that OMB serves a policy role but does not have many 
of the resources necessary to operationalize things.
    And, I would note that many of the problems we are faced 
with, in trying to make these systems more accessible and their 
data more consistent and interoperable, are cultural and policy 
issues. They are not technical issues.
    Senator Bennett. Again, the shorthand word for that, again, 
is stovepipes or silos.
    Mr. Hodgkins. Yes, sir.
    Senator Bennett. And, somebody has got to break down the 
stovepipes.
    Somebody has to say: We have the clout to say, OK, yes, we 
are going to listen to DOD. We are going to listen to GSA. They 
are the end users. But they are not going to develop their own 
system. We are not going to allow that because everybody ought 
to have some kind--there ought to be in the government some 
kind of common platform that there can be some interchange of 
information.
    If somebody is in charge of saying, well, you need to fix 
this and you need to fix that and you go ahead--no, you cannot 
do it without consulting them. But you have to create some kind 
of overall matrix, do you not, in order to have the whole thing 
work?
    Mr. Hodgkins. Yes, sir. Building, architecting the systems, 
architecting the data, what is going to be in it, what is not 
going to be gets to questions like does the comma count or not 
when you do a search. If you do not do that correctly on the 
front end, then you end up with systems that leave out results 
without a comma.
    I would say again, though, that this is a cultural issue. 
There are significant stovepipes, as the Senator has described 
and that would need to be overcome.
    But I would point to the standards that have been put in 
place at least since the beginning in the IAE. If agencies have 
a guidebook to follow when they are asked to develop new 
databases or improve the ones that are in place, then we can 
begin to see more consistent results. We can begin to see more 
interoperability between systems and the data they develop.
    This is not going to happen overnight, but if we can come 
up with a common set of standards and guides and issue guidance 
related to that, then we can move forward.
    Senator Bennett. Well, it sounds to me like we are talking 
about a whole new system.
    Mr. Woods. Senator, if I might, we are seeing some movement 
in that direction. Earlier this month, the Office of Management 
and Budget put a notice in the Federal Register about a new 
architecture that they are trying to create, that would bring 
together a lot of these systems. We have not looked at that 
proposal in any sort of depth, of course, but it does hold 
promise, and it does show that OMB is taking the reins and 
trying to break down some of the silos that you talked about.
    Mr. Hughes. If I could add one thing.
    Senator Bennett. Surely.
    Mr. Hughes. You mentioned it sounds like it is a whole new 
system. I am not sure that is exactly right. I think when 
USAspending.gov was launched, I do not think that means that we 
get rid of FPDS. I think the FPDS.gov web site is completely 
unnecessary, but the inputs that come through FPDS that funnel 
data through USAspending.gov, it is still the primary pipeline 
for data about contracting and spending data.
    So I think when you are talking about it, it is not 
necessary a whole new system. It is you have to get the 
databases and the data to be able to talk to each other. Once 
you do that, it is simple to put up a one-stop interface where 
all the data can be pulled to one place.
    It is just a problem because of the siloed nature of the 
development of these systems, like you talked about. They are 
not able to communicate with each other. I think OMB's 
involvement is crucial to be able to make sure those kind of 
standard technologies can be developed, so that the systems can 
talk to each other.
    Senator Bennett. I think the USAspending.gov, the Coburn-
Obama Bill, was a very good step in the right direction.
    And, we can debate what constitutes a whole new system. I 
am not suggesting that we throw everything out, but let me say 
a whole new mindset on the part of the Federal Government that 
says: We are going to have a single platform. We are going to 
move whatever we have now that works around into that concept, 
and we are going to address it from the standpoint of the end 
users, whether it is DOD, GSA, or whatever.
    Or, the contractors because contractors are end users of 
this, and we have to keep in mind the concerns that Mr. 
Hodgkins has raised. The contractor says I am not going to get 
on that system if it is going to be used in this way.
    I come back to the comment I made in my opening statement 
that one of the things that is wrong with this whole business 
of Federal procurement is that a number of businesses simply 
will not play, not because they do not have something that the 
Federal Government could use. Indeed, they may very well have 
something that the Federal Government needs, that is better 
than what is being purchased now, but the procurement system is 
so broken that they will not play in that arena, and you end up 
with less than the best value and shutting out contractors. So 
when we talk about end users, we have to include Mr. Hodgkins's 
constituency as well.
    Thank you, Madam Chairman.
    Chairman McCaskill. Let me just briefly talk about what OMB 
is about to do in terms of this contract that they are going to 
put out there, this architectural operations contract. It is a 
huge contract, 8 years in duration, massive scope, to try to 
build a platform to pull all these databases in.
    It could result in the elimination or consolidation of 
databases across the entire Federal civilian and Defense 
Department acquisition communities, but there is also great 
potential, great risk here. If we build an egg carton and just 
move the eggs, without ever busting the eggs and improving the 
input of the data and improving the ability to talk to one 
another, I do not know what we have accomplished.
    Your comments, Mr. Hughes, about being consulted, the end 
users. I mean IT 101 is you better talk to the people who are 
going to use the system before you design the system as opposed 
to just having people design it in a vacuum.
    What I was very concerned about in preparation for this 
hearing was that I had heard from staff that none of you were 
of this contract before we began preparing for this hearing. Is 
that accurate?
    Mr. Woods. Yes. I, personally, was not. That is correct.
    Chairman McCaskill. Mr. Hodgkins.
    Mr. Hodgkins. Nor was I, Senator. That does not mean that 
some of my member companies would not have known about it and 
be pursuing that opportunity, but I was not aware of it.
    Chairman McCaskill. Yes, well, that is kind of scary. I 
mean you are three major end users, obviously. As far as I am 
concerned, Mr. Woods, there is no bigger and more important end 
user of database information in government than GAO. As you 
said very accurately, you cannot do your work in a meaningful, 
effective or efficient way if the databases are not reliable 
and user friendly.
    Mr. Woods. That is correct.
    Chairman McCaskill. And, Mr. Hughes, you cannot provide any 
outside oversight under the same situation.
    Now since you learned of this contract being let, do you 
have any opinions as to whether or not they are going the right 
way and the way we are doing this, this setting up an egg 
carton to move the eggs as opposed to trying to start with a 
brand new system that Senator Bennett alluded to?
    Mr. Hughes. I do not. I have not. Even though I know that 
they are moving forward with that, I do not have a great deal 
of information about what exactly they are trying to achieve 
from a technical standpoint.
    Your description of it in your opening statement, though, 
sounds remarkably similar to what I wrote in my testimony. So, 
from at least a summary standpoint, it sounds like the vision 
for what they want to achieve is correct. My hesitation, 
however, is that the devil is always in the details with these 
things.
    The FPDS-NG contract was supposed to make it a user-
friendly web site. That completely failed. It was not user 
friendly, and it is still not user friendly. So, even if the 
vision is in place, if you do not have the right mechanisms put 
together, you can still end up with your description of the egg 
carton.
    Chairman McCaskill. Finally, Mr. Woods, let me ask you 
before we go to the representative from OMB and any other 
questions Mr. Bennett might have, do you have any advice or 
anything that we could do, because it is correct that OMB needs 
to be kind of in charge of setting the table?
    But, if people do not pull up to the table and participate, 
these databases are really not going to work. I mean they are 
only as good as the information that is put in. And, if there 
is not a culture that emphasizes the accurate input of data at 
the Pentagon or at the Department of Homeland Security or at 
HHS, then this is really an empty exercise.
    Have you seen anything as you have looked at these systems, 
that certain departments have done a better job?
    Does anybody get in trouble for not putting data in? Is 
there any sense that there is accountability at the trench 
level where this information has to be put into the system in 
order for it to be collated or used in terms of accountability?
    Mr. Woods. Well, there are lots of different issues about 
why we are where we are in terms of the data. One is certainly 
the overtaxed acquisition workforce. We have fewer of them now 
than we used to, and now spending is far greater, and the 
number of contract actions is also far greater. So that is one 
place to look for why.
    But, in terms of your issue and how do we change the 
culture, I think the agencies need to realize the value that 
good information could have for them. If they became more aware 
of where they are spending their budget, who they are spending 
it with, they could take what is known as a strategic sourcing 
approach and consolidate buys where that make sense, to go to 
alternative sources where that makes sense, to look for 
competition opportunities where those present themselves.
    So, accurate data can be of benefit to the agencies. They 
can be the users of the data themselves. They should be the 
users of the data.
    Chairman McCaskill. Yes, it would work better if it was 
their money they were spending instead of public money.
    Mr. Hughes. Senator, if I could add one thing about the 
culture question.
    Chairman McCaskill. Yes.
    Mr. Hughes. It is a cultural issue within agencies, and I 
think to a large extent transparency is a great tool to be able 
to help facilitate a better culture and a more responsive 
culture.
    Chairman McCaskill. Right.
    Mr. Hughes. You asked, does anyone ever get in trouble? I 
think you want to flip that on its head. I think you want to 
reward folks for disclosing information, for filling out the 
evaluations, etc.
    I think the GAO report from April showed that not only is 
our acquisition workforce overtaxed and do not have time to 
fill out all these evaluations, but they do not see the value 
in it. They do not see how they can use the data to help them 
better do their jobs.
    So I think if we are able to develop the tools to be able 
to facilitate this. For instance, contract officers do not even 
have a good tool to figure out which contracts they have filled 
out evaluations for and which ones they have not.
    A lot of times agencies do not know what their percentage 
of contract evaluations filled out is. They have to have GAO 
come in and do an exhaustive study to figure it out. That 
should be a very simple statistic that is easy to track through 
a better contracting database system.
    I think if you put those tools in place and if you open it 
up, with the concerns about proprietary information addressed, 
you are going to see a more responsive workforce enter better 
data over time. It is not going to happen in a year, but, if 
you have the right systems in place, overall it will get better 
and better as we move forward.
    Chairman McCaskill. That is a good idea. OK.
    Mr. Hodgkins. Senator, if I may add, I noted in my written 
testimony that there are some of the software tools that 
contracting officers and acquisition workforce personnel are 
using today that are linked into PPIRS, and there may be a way 
to expand upon that so that some of the work they are already 
performing--we are not adding to their workload--is feeding 
into these systems and populating some of these fields.
    It would still not do the follow-on evaluation. They need 
to go back and do that. But it may be a way to keep from adding 
to their workload but get more information into these systems 
as we look at options.
    Chairman McCaskill. Anything else, Mr. Bennett, for these 
witnesses?
    Senator Bennett. Yes. Mr. Woods, the AOCS RFP has been 
issued, but the contract has not yet been awarded.
    Mr. Woods. That is my understanding, sir.
    Senator Bennett. My question is could GAO take a look at 
the process of how it is being awarded and who is bidding and 
make a contribution to see to it that the contract goes to the 
right folks, or is that not yours?
    Mr. Woods. Well, at some point, we may be able to do audit 
work looking at this particular procurement, but now is an 
extremely sensitive time. My understanding is we are in the 
source selection phase of that. GAO has a statutory function to 
entertain and decide bid protests. So if once that award is 
made, if anyone were to challenge that award, we would need to 
be in a position where our independence is not compromised and 
we are able to fairly decide that protest.
    Senator Bennett. Just to satisfy my curiosity, who are the 
bidders and who is going to make the decision as to which 
bidder gets the contract?
    Mr. Woods. I do not know who the bidders are. What I do 
know is that it is a General Services Administration 
procurement, and I do not know who the source selection 
official is.
    Senator Bennett. So GSA will probably make the decision 
rather than OMB?
    Mr. Woods. That is my understanding, sir.
    Senator Bennett. OK. Madam Chairman, maybe we can find out. 
What kind of contractor would be bidding for this?
    You say you do not know who they are, but are we looking at 
McKinsey and Booz Allen Hamilton competing with each other or 
are we looking at big accounting firms? Are we looking at 
Microsoft?
    I have no idea. Who would be trying to do this?
    Mr. Hughes. It is unknown. I mean I think maybe Mr. 
Hodgkins can comment. Like he mentioned earlier, there may be a 
great variety of companies bidding to get the contract, and 
then there are associated subcontractors that can provide 
different aspects of the RFP. I think it could be any and all 
of those companies or types of companies that you mentioned.
    I think particularly for IT procurements, there is the kind 
of big heavy-hitters that come in and say, we have a big 
network of subcontractors, we can do anything. There is the 
small, more boutique firms that have more of a niche in the IT 
sectors and what they can deliver. At this point, it is really, 
from my opinion, it is up in the air.
    I think what we learned through the Recovery.gov 2.0 
contract, about who was bidding and what types of firms banded 
together to be contractors and subcontractors. I think some of 
the names that came up, particularly Smartronix, I had never 
heard of, and they won this very large redesign contract.
    So it is really difficult to say. It is not the top three 
companies, and those are the only ones that are going to bid. 
But if it is not disclosed, so there is no way to actually know 
who is bidding.
    Well, someone knows. Someone at GSA knows.
    Senator Bennett. Somebody is going to know because they are 
going to give it.
    Back to my earlier analogy, something as important as this, 
if I were the CEO, I would want to know even though I am not 
the one to make the final decision because I would delegate 
that to somebody whose expertise was greater than mine. I 
would, at least for something this important to the 
corporation, as the CEO, I would want to have a review.
    Again, this comes back to OMB. OMB is the president in 
terms of managing the Federal Government. As I say, I served in 
the Executive Branch, and I know that a cabinet officer 
usually, once the thrill of taking the oath of office in the 
Oval Office wears off, discovers that he works for a staffer at 
OMB. That is just kind of the reality of where we are.
    So we will raise this with this next witness.
    Chairman McCaskill. I want to thank all three of you for 
being here and for adding important information to this 
discussion on Federal contracting databases. The Subcommittee 
appreciates your being here.
    Thank you, Mr. Kundra. As I indicated before, it is the 
custom of this Subcommittee to do an oath, and I would ask you 
at this time: Is the information you are about to give this 
Subcommittee the truth, the whole truth and nothing but the 
truth, so help you, God?
    Mr. Kundra. It is the truth, yes.
    Chairman McCaskill. Thank you very much for being here.
    Mr. Kundra was appointed as Federal Chief Information 
Officer of the United States by President Obama in March, 2009. 
Prior to joining the Administration, he served in Mayor Fenty's 
cabinet as the CTO for the District of Columbia and in Governor 
Kaine's cabinet as the Assistant Secretary of Commerce and 
Technology for the Commonwealth of Virginia. He has also served 
in leadership roles in the private sector.
    He got the 2008 IT Executive of the Year for his pioneering 
work to drive transparency, engage citizens and lower the cost 
of government operation. He has been named to the Government 
Technology Magazine's Top 25 Doers, Dreamers and Drivers.
    And, we need a doer, a dreamer, and a driver in this area 
of Federal contracting.
    Thank you for being here today. We look forward to your 
testimony.

TESTIMONY OF VIVEK KUNDRA,\1\ FEDERAL CHIEF INFORMATION OFFICER 
  AND ADMINISTRATOR FOR ELECTRONIC GOVERNMENT AND INFORMATION 
          TECHNOLOGY, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Kundra. Chairman McCaskill and Ranking Member Bennett, 
I am pleased to appear before you today to discuss the 
Administration's commitment to improving acquisition 
information systems and plans to promote greater transparency 
in Federal contracting. We recognize issues around data 
timeliness, accuracy and completeness, and also the usability 
of the various systems that were discussed earlier.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kundra appears in the Appendix on 
page 74.
---------------------------------------------------------------------------
    The Federal acquisition process is complex and involves 
many stakeholders with different needs. Over the last decade, 
the acquisition community has led policy and system changes to 
streamline the complicated Federal acquisition environment. 
Moving forward, the Administration is committed to greater 
openness and transparency. Greater transparency in public 
procurement will enhance competition, promote citizen 
engagement and drive accountability that will lead to better 
stewardship of taxpayer dollars.
    Let me describe how earlier efforts have served as a 
foundation for today's acquisition systems and discuss plans 
for the future.
    Consider three basic questions that the American people 
have a right to know: What contracting opportunities are 
available? What is the government buying and how? With whom is 
the government doing business?
    To address these questions, the Federal Government has 
undertaken a decade-long journey. In the early nineties, 
vendors interested in contracting opportunities had to 
subscribe to a daily print publication called the Commerce 
Business Daily. In 2002, the Commerce Business Daily was 
retired, and FedBizOpps became the central source for 
contracting opportunities. Today, over 100,000 vendors have 
subscribed to FedBizOpps and about 2,000 opportunities are 
posted daily.
    Previously, information about what the government buys was 
provided in an annual paper-based report. The current Federal 
Procurement Data System (FPDS), established in 2003, captures 
up to 198 data elements per transaction, ranging from the type 
of contract to the money obligated. Last year, there were over 
eight million transactions in the system.
    Before the Central Contractor Registration system was made 
mandatory in 2003, vendors interested in doing business with 
the government mailed forms to individual contracting offices. 
Today, nearly 600,000 vendors are registered in CCR, and the 
government uses this information to pay vendors and to search 
for businesses in specific industries. Instead of contacting 
multiple government offices, vendors register only once.
    Over the nearly 8 years that the IAE has existed, 
electronic acquisition tools have been made public. They have 
been identified and developed for governmentwide use. Hundreds 
of standalone paper-based systems or agency-maintained systems 
were replaced by eight governmentwide systems that support over 
40,000 contracting officials, 600,000 vendors, over $500 
billion in annual procurement spending, and over 8 million 
transactions a year.
    Each of the IAE systems was developed independently, used 
different software and operated on different hardware 
platforms. Due to the fragmented ad hoc nature of procurement 
systems, cultural changes required in the agencies and resource 
constraints, improvements did not occur overnight. For example, 
fully implementing FPDS at a single agency took 3 years to 
complete.
    As a result, GSA is re-architecting and consolidating the 
IA Environment to develop the integrated procurement platform 
of the future. The success of these efforts depends on 
leadership in the acquisition community both at the Office of 
Management and Budget and at the agencies.
    The Office of Procurement Policy is setting the policy. The 
Office of E-Government and Information Technology at OMB is 
providing the technology leadership. GSA is responsible for 
program management. And, agencies are responsible for 
submitting timely, accurate and comprehensive data.
    Despite previous efforts to migrate from hundreds of 
systems to the eight that currently comprise the IAE, much work 
remains to address persistent issues discussed by the previous 
panel. We must continue to focus on improving data quality, 
increasing transparency and enhancing usability.
    In moving to the future procurement platform, the American 
people will have unprecedented access into how their taxpayer 
dollars are being spent. Vendors will be able to compete more 
efficiently through a streamlined platform, and oversight 
organizations and public interest groups will have improved 
access to procurement data.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    Chairman McCaskill. Thank you very much, and we welcome you 
to the hearing.
    Let me just start with putting a slide up that is supposed 
to show the Integrated Acquisition Environment Governance 
Structure.\1\
---------------------------------------------------------------------------
    \1\ The chart referred to appears in the Appendix on page 43.
---------------------------------------------------------------------------
    I spent some time with this. I think what I am most worried 
about is this is the governance structure, and I cannot tell 
who is in charge. I understand this is a challenge because you 
have inputs from so many places, and you have to involve more 
than just the personnel at OMB, but I have to figure out who is 
going to pull the trigger on changing this architecture and who 
is the boss.
    Can you lend any--I mean that is kind of an embarrassing 
chart in that I think the idea in information technology is to 
make it simple, so everyone can understand it. It is very hard 
to understand that diagram, and it is the governance. So if you 
cannot understand the governance, all kinds of nonsense can 
happen.
    Can you illuminate the Subcommittee on who is in charge?
    Mr. Kundra. It is the Office of Federal Procurement Policy 
is driving the policy and the strategy when it comes to 
consolidating and creating a single platform across the Federal 
Government.
    My office, the Office of E-Government and Information 
Technology is providing the technology leadership at OMB in 
terms of the architecture of the systems themselves.
    And, GSA is responsible for the operations of the 
Integrated Acquisition Environment.
    Senator Bennett. GSA is not on this chart?
    Chairman McCaskill. GSA is not here in terms of governance. 
So is GSA just merely functioning as a pass-through and not in 
terms of governance?
    I see OFPP, and I see E-Gov and then two others, like there 
are four little squares at the top under OMB: OFFM, E-Gov, and 
RMO and then OFPP. Which of those four?
    If there is a horrible article on the front page of the 
Washington Post about how this integration contract has failed, 
who is Peter Orszag going to call first?
    Mr. Kundra. So, ultimately, this is being driven from a 
policy perspective at OFPP, from a business perspective, and we 
are providing support on the technology side.
    Chairman McCaskill. OK. So if it is a failure of the 
systems, it might be you. But if it is the policy that is 
driving what you have designed, it would be OFPP.
    Mr. Kundra. Right, and in terms of the operations of this 
plan, of course, it is the GSA project management office in 
terms of managing this project and even, as you were talking 
about earlier, from a contracting perspective. GSA has the 
expertise and the PMO office in terms of managing the project 
itself, but the policy is being set out of OMB.
    Chairman McCaskill. OK. I am glad of you because we really 
have not gotten until now anybody to admit who is in charge. So 
I would say the policy then is OFPP. You are helping them 
navigate the IT part of it, but the policy is being driven 
there.
    In terms of who is designing this, what is essential, is 
that OFPP in terms of what? I mean who would I look to for not 
talking to some of the most important end users, prior to this 
RFP being put out in the street?
    Mr. Kundra. So GSA is the entity that has issued the RFP. 
And, from my understanding, last year, there was actually an 
industry day, and also before they put out the RFP it was 
advertised widely. It is an open, competitive process for this 
entire contract. That was on FedBizOpps, available for anybody 
to compete on.
    Chairman McCaskill. This has been around. This plan really 
has been one that the previous administration did. It has been 
2 years in the making, my understanding.
    Mr. Kundra. With the community, yes, from 2007.
    And, the E-Gov office has been involved with GSA in terms 
of the architecture and thinking forward in terms of the new 
platform, and a big part of that is driven by the President's 
agenda on transparency and open government. If you look at the 
changes that have been made in this Administration around 
USAspending and the IT dashboard, in a similar fashion, what we 
want to make sure is that this architecture--the underlying 
architecture--enables the American people to have access to 
procurement data and to ensure that this government is 
operating in ways that were not available before.
    Chairman McCaskill. If you would show the next slide, 
please, this is the AOCS System Transition and Migration. Could 
you simply explain what this document is trying to show to 
someone that is trying to understand this process?\1\
---------------------------------------------------------------------------
    \1\ The chart referred to appears in the Appendix on page 44.
---------------------------------------------------------------------------
    How long is this going to take to combine these systems and 
move these eggs to a new egg carton?
    Mr. Kundra. So if we look, if we could step back a little 
bit, the systems that exist today--the eight various systems--
actually have over a million codes, lines of code that actually 
make up these eight systems.
    And, what you are seeing here before you is a notional 
diagram that GSA has created that, one, first takes care of 
efficiencies around making sure there is a common help desk 
across these eight distributed systems. It makes no sense to 
have eight separate help desks, to have eight separate hosting 
providers.
    So step one is to consolidate and make sure that we are 
saving taxpayer dollars, so we are not replicating this eight 
times. So they have done that with the help desk.
    What they are moving forward with here is to actually first 
reengineer the whole architecture of these systems. So what we 
are not doing is essentially lifting up the systems and not 
really spending any energy rethinking about how does work get 
done within the Federal Government. How do you architect it and 
make sure that we are listening to the requirement?
    And, as the previous panel said, they may not have been 
consulted before. But part one of this contract, what GSA is 
asking is to make sure that there is requirements-gathering, 
that there is a broad array of people that are consulted ahead 
of time and that there are actually profiles created on the 
different types of users.
    And then, moving forward, what will happen is these systems 
will be moved to a consolidated hosting environment, after 
which the one million plus lines of code that I was talking 
about, part of what will happen is it will be reengineered to 
make sure that it is in line with the transparency objectives 
of this Administration.
    And also, making sure that we are looking at the entire 
ecosystem--what is it that the contracting officers need today 
that they do not have access to? What is it that the American 
people need access to that they do not have access to?
    And, how do we use newer technologies, whether it is around 
search, so that you do not have eight different search engines 
as you do today? In each of these eight systems, how do you get 
a unified search across all of these different databases?
    Chairman McCaskill. So you are envisioning that you are 
going to have a new search capability that will integrate all? 
It is not going to just be a platform where all these siloed 
systems are going to sit?
    Mr. Kundra. Absolutely not. That would be a waste of time, 
if all we did is just took eight databases and moved them to a 
single platform.
    The idea here is phase one of this is to rationalize the 
investments we are making, so we have them initially hosted 
centrally. Then phase two is to actually go out there and 
reengineer the entire platform, so that it is not just a copy 
and paste because that adds no value.
    Chairman McCaskill. So you believe that when this is all 
said and done, and if you could guess how long it is going to 
take for me today, and then we are not going to have the comma 
problem in excluded parties anymore?
    Mr. Kundra. Actually, even with the comma problem, as late 
as last week, GSA was working on addressing that issue. So 
there are going to be a number of incremental changes that are 
going to be made as we move forward with this new platform.
    The notion here is to make sure that what we do not do is 
repeat some of the same problems that we did in the past, which 
was essentially just webify our current processes and 
essentially take the brick and mortar institutions and just put 
a web site in front of them. What is really important here in 
terms of the architecture of this new platform is to rethink 
and introduce game-changing technologies that will actually 
improve data quality, improve the timeliness and ensure that we 
have comprehensive data sets from an agency perspective.
    But I do not want to over-promise in terms of just the role 
of technology because a lot of this is also going to have to do 
with the cultural changes that are going to be made at the 
agency level.
    Chairman McCaskill. Right.
    Mr. Kundra. But what technology can do is introduce steps 
up front, so people are not allowed to submit information that 
may be incomplete, so people are not allowed to enter 
information that is inaccurate.
    Right now, if you were to put in an address or vendor name, 
it is replicated eight different times. Whereas, in our 
consumer lives, if we are changing an address, the U.S. Postal 
Service allows you to auto-fill it and asks you is this the 
accurate address. It looks it up from a database.
    In the same way, the new architecture will introduce some 
of those architectural changes that ensure that you have a 
common service platform, so that you do not have to think about 
these in eight different ways.
    The approach historically has been, well, if you need to 
register as a contractor, you have got to have one system. If 
you need to look at past performance, you have to sign up for a 
second system.
    Chairman McCaskill. Right.
    Mr. Kundra. If you need to look at the excluded parties 
list, there is a third system.
    And, this system essentially rationalizes those investments 
and makes sure there is a common platform.
    Chairman McCaskill. Now how long do you think this is going 
to take?
    Mr. Kundra. So the notional architecture right now is 2 to 
3 years, but what is unknown is because the bids are not in as 
far as a contract is concerned it could be done as soon as a 
year and a half, or it could take 3 years. That is going to 
dependent on the responses that come in to the contract itself.
    Chairman McCaskill. Well, you are going to go in the Hall 
of Fame of Dreamers, Doers, and Drivers if you do it in 3 
years.
    We just heard testimony that there was an interagency group 
that came together and made serious and substantial and helpful 
recommendations, and 4 years later we finally had some 
government policy that embraced those recommendations. Then, it 
was like it was very weak coffee by the time that they had 
actually embraced the recommendations of the panel.
    So, if it takes 4 years to do something like that, what you 
are really proposing to do here, if we accomplish what you say 
we are going to accomplish, it will be a great day because then 
you will be able to go to various places with one inquiry. I 
think that is exactly what needs to happen. So I wish you luck.
    It seems to me that one of the reasons this is occurring is 
who owns the codes and the controversy that these various 
databases have had with their contractors. When it is time to 
make changes and it is time to get responsiveness from the 
contractor, it has been an arm-wrestling match over the 
ownership of the codes.
    Are you confident that you have addressed the ownership of 
the codes in this new architectural effort you are making for 
these databases?
    Mr. Kundra. So part of the GSA contract itself is that 
there is a provision that the code will be open, meaning the 
government will own the code and, not only that, when 
modifications are made to the code itself, they will be 
transparent and everybody will be able to see how it was coded, 
so that if we do have to switch from Contractor A to B the 
government owns that intellectual property and not an 
individual contractor.
    Chairman McCaskill. OK. Thank you. Senator Bennett.
    Senator Bennett. Thank you very much.
    My understanding is that GSA is probably doing a pretty 
good job of dealing with this, but again they are acting, as 
the chart showed, under the direction of OMB. So, while they 
are doing a good job executing, the vision is going to have to 
come out, again, from OMB.
    What is the Acquisition Committee for E-Government? Can you 
describe their role for us?
    Mr. Kundra. Sure, sir. The Acquisition Committee for E-
Government is made up of stakeholders, whether that is at DOD 
or HHS or NASA, and they look, they serve as a change control 
board in terms of the changes that are made to the various 
systems.
    One of the best practices in technology projects is that 
you have to have a high engagement of the business owners and 
the technology folks. Otherwise, technology projects fail.
    And, history is littered in the Federal Government with 
massive IT failures because what ends up happening is the 
technology folks go out there and build the best, greatest, 
neatest thing, and the business people look at it and say, oh, 
what is this? We cannot even use it or it does not solve 99 
percent of our problems.
    Senator Bennett. Yes. Can you say Social Security 
Administration?
    Mr. Kundra. There are a number of projects.
    So the ACE committee serves to ensure that the interests 
and the oversight is also there from a business perspective as 
GSA makes a lot of these changes, and we are getting constant 
input in terms of change management.
    Senator Bennett. Well, I keep going after the locus of the 
vision, and you have given us two agencies in OMB, both of 
which you are responsible for--the E-Government and the OFPP.
    Mr. Kundra. I am not responsible for OFPP. I am responsible 
for E-Gov, but we work very closely together.
    Senator Bennett. You play a role in OFPP, do you not?
    Mr. Kundra. No, I do not.
    Senator Bennett. You do not play any role there?
    Mr. Kundra. No. I am just in E-Government and Information 
Technology.
    Senator Bennett. OK. So you told us earlier that the vision 
ultimately comes out of OFPP?
    Mr. Kundra. OFPP sets the policy.
    Senator Bennett. I see, all right.
    Mr. Kundra. From a technology perspective and architecture, 
I am working closely with my colleagues at OMB. Just to give 
you an example of a couple of things that we have is if you 
look at the IT dashboard that we deployed. We were looking at 
$76 billion of IT spending, and for the first time what we did 
is we democratized that data to where you could see where we 
were on a specific project plan, on a monthly basis, and we are 
moving as close as possible to real time.
    Ultimately, this is driven by the President's vision of a 
transparent and an open government where the default 
presumption is we will put information out there, release it, 
serving the interests of the public.
    I will be the first one to tell you that I do not think if 
you look at these eight systems that they were designed or 
architected from the ground-up with transparency, collaboration 
and open government in mind, and part of the vision here is to 
move the public sector in that direction.
    Senator Bennett. OK. Well, the Chairman is a Senator from 
Missouri, and in that spirit I am trying to find where the buck 
stops, and I have not found it yet in terms of the setting the 
vision here.
    Now it is easy to say, well, the President has to set it. 
But, in reality, other than saying we have to solve this 
problem, the buck has to stop somewhere in here, and I am still 
fuzzy on it. Maybe it is my inability to understand quite what 
you are telling me.
    GSA has to have a vision articulated to them in very clear 
terms before they can really make an intelligent decision with 
respect to the RFP. OK.
    This is the contractor that is best equipped to fill the 
vision, and GSA reports that to OFPP. I understand the head of 
that office, that position is vacant at the moment. So there is 
an acting somewhere.
    Now you say the President has laid out a vision. I have a 
slight problem with what I hear of the President's vision. I 
hear it over and over again--full transparency. Well, I am all 
for full transparency as long as the system works. But you can 
have full transparency in a system that does not work and say, 
yes, everybody knows that it does not work.
    So there has to be an additional part of this vision just 
other than, well, we are going to have the most transparent 
government available. We have to have something that works. Who 
sets the vision that says, GSA, this is the vision of how this 
thing really has to work, this is our goal?
    And, if the goal is transparency above all else and you 
leave out the question of how does it work, you run the risk of 
getting the wrong contractor, and Senator McCaskill's concern 
about 4 years will be fulfilled. You will spend the money, and 
4 years later you will not have the problem solved.
    Mr. Kundra. And, I did not mean to imply that the vision is 
only full transparency.
    The vision is actually articulated as part of the strategy 
around making sure that, one, these systems obviously work as 
far as being transactional systems, whether it is for the 
40,000 plus contracting officials or it is for the private 
sector that wants to compete and do business with the 
government--making sure that it is easy for the private sector 
to engage. We want to encourage new entrants. So we have 
Darwinian pressure in terms of making sure that we are getting 
the best product or services at the lowest cost, so we are 
producing value for taxpayers.
    Also, making sure that the open government agenda for the 
American people, they can see how their dollars are being spent 
around transparency.
    Ultimately, this is part of a management agenda that we are 
working with the Deputy Director of Management to drive this 
agenda across the Federal Government.
    Senator Bennett. I agree with that goal. Thank you, Madam 
Chairman.
    Chairman McCaskill. I know that the mission for IAE was 
defined back in October 2007. I have reviewed the mission, and 
there is nothing in there about transparency and access for the 
public. The mission was to simplify, unify, and streamline the 
acquisition process for government buyers and government 
sellers.
    What steps have you taken to try to reconcile the 
President's transparency initiatives with the stated mission of 
the IAE and how do you reconcile that mission with the 
requirement of a password for the new system as it relates to 
access, especially since you do not need a password for 
USAspending.gov?
    Mr. Kundra. What is happening is, one, we are involved, OMB 
is involved, with the ACE community in making sure that we are 
baking these requirements into what the new platform is going 
to look like.
    Two, we are working very closely with GSA. But I think more 
importantly, as part of the architecture process itself, step 
one is to actually go out there and gather requirements. What 
is going to happen is post the award, GSA is going to be 
listening to not just internal Federal Government employees but 
OMB Watch, listening to TechAmerica, listening to the U.S. 
Congress, listening to the American people to make sure that 
those requirements are baked in because this is a huge 
opportunity, and it is a once in a decade-long opportunity to 
make sure that we get this right, once and for all.
    That is why we are leading with architecture. We are 
leading with making sure that we do not end up with where we 
are right now. The analogy would be having eight different 
people with eight different visions going out there and 
building a building.
    For the first time, what we are saying is let's step back. 
Let's figure out what is it that the users really need, and 
that is why step one is to make sure that we award an 
architecture contract, so we can bake that into the operations 
of this new platform.
    Chairman McCaskill. To carry your analogy one step further, 
you are building a building that is going to have a huge, 
massive stadium representing the public surrounding it, that 
want to see right into that building. I mean through every wall 
and through every partition. That, obviously, is the challenge 
for you.
    I want to not leave this hearing without addressing one of 
my themes in contracting oversight, and that is contractors 
watching contractors, developing policies for contractors 
monitoring contractors. We have contractors overseeing 
contractors within the project and the management of IAE. In 
fact, the IAE Program Management Office has more contractor 
employees than it has government employees.
    Have you had an opportunity to get your arms around the 
massive use of contractors in the area of managing contractors 
and how we move away from what I do not think anybody has been 
able to demonstrate, a process that has actually produced any 
cost savings to the government?
    Mr. Kundra. My understanding from the GSA Project 
Management Office is that it is made up of about 15 Federal 
Government employees and 15 contractors.
    But what is really important here is that is why ACE is 
vital--the Acquisition Committee for E-Government which 
represents the government interests and the oversight that OMB 
is providing in terms of setting the policy direction, working 
closely with GSA. So GSA and the contracting community there is 
not just engineering all this on its own, but it is actually 
the Program Management Office.
    Not only that, but GSA has actually just hired a full-time 
contracting officer to oversee this contract, to make sure, 
given how important and vital this is to the public interest, 
that we are watching this contract and that it is the 
government officials that are calling the shots. Especially 
when you look at the specific migrations of these systems, it 
is going to be ultimately in the hands of the government in 
making those decisions, and especially the award decisions 
themselves.
    Chairman McCaskill. OK. I will be watching very closely on 
the award of this contract because I think it is very important 
that true competition is occurring.
    We had a very contentious hearing on the ANCs, and I do not 
want to revisit that topic today, but there are exclusions and 
exceptions to the need for competitiveness that are built into 
the law.
    But I hope that we are paying attention to competition 
because ultimately some of the massive IT failures that we 
discussed were about relying on one source of information, one 
person saying this is what you need and have to have, and 
pulling the trigger without enough input and enough competitive 
input into the process. That is one of the reasons that we have 
had the massive failures in so many of the IT systems that we 
have gone about trying to implement. So I hope you are paying 
attention on that front.
    Mr. Kundra. And, on the cost side, that is one of the 
reasons this is a fixed-price, open, competitive contract, so 
we do not end up in an environment where we have cost overruns.
    Chairman McCaskill. Great. I do not think I have anything 
else. Senator Bennett, do you have anything else today?
    Senator Bennett. Just a comment or two. Mr. Kundra, do you 
sit on ACE?
    Mr. Kundra. My team is represented on ACE. I have attended 
meetings of the ACE community itself. But, from OMB, I have 
folks who serve on that and attend those meetings regularly.
    Senator Bennett. I think it vital that you do that, that 
you be involved in that because, yes, it is important that the 
end users all get there and say this is what we need.
    But, again, from my own business experience, one of the 
most catastrophic IT circumstances that I lived through with 
one of my clients is that when all of the folks who wanted the 
services said, well, can the computers do this and can the 
computers do that and can the computers do the other thing, and 
the answer was yes in every instance. And, they all got 
excited.
    No one asked the question, should the computers do this? 
There were some things that, quite frankly, the computer was 
less efficient than somebody who had a human brain, who could 
look at this and say, that is a dumb thing to do. But we can do 
it by computer.
    You are in the position to say, the computer is not all-
knowing. The computer is an idiot. It only does what it is 
programmed to do, and it does not think.
    Hollywood movies to the contrary, the computer does not 
think. It only does what it is programmed to do, and there are 
some things that require humans to be there and make some 
human, intelligent decisions for which they will be held 
accountable.
    I think someone of your background and capacity should be 
there as people are saying, well, can you do this for me and, 
oh, great, let's do all of this--and try to cut the human 
decisionmaking out in a way to make everything automatic.
    The company that had that experience no longer exists, and 
one of the reasons is because it tried to use the computer to 
do some things that intelligent human beings could do. And, 
many times, the intelligent human being can do it faster 
because this is a judgment call rather than an arithmetic 
analysis circumstance.
    I hope that gets into this overall restructuring of where 
we are going in government because I think if we were to drill 
down deep enough we would find examples of people relying on 
computers to make decisions that people ought to be making 
instead of machines.
    That is just an editorial comment that I would like to 
leave with you, as I salute you for your service and your 
expertise and thank you for your willingness to come into this 
mess. I know you could make a whole lot more money some place 
else. So we are grateful for your willingness to come here and 
help us out.
    Mr. Kundra. Thank you.
    Chairman McCaskill. Yes, we do appreciate that. I think 
that what we are about to embark upon has great rewards 
potentially, but I think you uniquely understand, perhaps, the 
great risks that are also involved.
    Please tell all of your colleagues that are involved in 
this project and get word to the ACE council that this 
Subcommittee will continue to provide oversight in this 
process, and we will be looking to provide input as the process 
goes along.
    There are not very many people around here that understand 
the alphabet soup of the Federal contracting databases or all 
of the problems inherent in those databases. I think this 
Subcommittee does, and we will continue to try to be an active 
partner in doing the best job we can in producing a system that 
makes sense for the American taxpayers.
    We appreciate your service. I do not think we say often 
enough that people who make choices like you have made have 
decided that there is greater good to going to work for the 
public than getting a very big paycheck from many private 
entities that would be happy to pay you much more than we would 
ever dream of paying you. So I second Mr. Bennett's 
congratulations to you in joining government, and we will look 
forward to continuing to work together and provide the kind of 
aggressive oversight that I know can be helpful to this project 
in the long run.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 53844.001

[GRAPHIC] [TIFF OMITTED] 53844.002

[GRAPHIC] [TIFF OMITTED] 53844.003

[GRAPHIC] [TIFF OMITTED] 53844.004

[GRAPHIC] [TIFF OMITTED] 53844.005

[GRAPHIC] [TIFF OMITTED] 53844.006

[GRAPHIC] [TIFF OMITTED] 53844.007

[GRAPHIC] [TIFF OMITTED] 53844.008

[GRAPHIC] [TIFF OMITTED] 53844.009

[GRAPHIC] [TIFF OMITTED] 53844.010

[GRAPHIC] [TIFF OMITTED] 53844.011

[GRAPHIC] [TIFF OMITTED] 53844.012

[GRAPHIC] [TIFF OMITTED] 53844.013

[GRAPHIC] [TIFF OMITTED] 53844.014

[GRAPHIC] [TIFF OMITTED] 53844.015

[GRAPHIC] [TIFF OMITTED] 53844.016

[GRAPHIC] [TIFF OMITTED] 53844.017

[GRAPHIC] [TIFF OMITTED] 53844.018

[GRAPHIC] [TIFF OMITTED] 53844.019

[GRAPHIC] [TIFF OMITTED] 53844.020

[GRAPHIC] [TIFF OMITTED] 53844.021

[GRAPHIC] [TIFF OMITTED] 53844.022

[GRAPHIC] [TIFF OMITTED] 53844.023

[GRAPHIC] [TIFF OMITTED] 53844.024

[GRAPHIC] [TIFF OMITTED] 53844.025

[GRAPHIC] [TIFF OMITTED] 53844.026

[GRAPHIC] [TIFF OMITTED] 53844.027

[GRAPHIC] [TIFF OMITTED] 53844.028

[GRAPHIC] [TIFF OMITTED] 53844.029

[GRAPHIC] [TIFF OMITTED] 53844.030

[GRAPHIC] [TIFF OMITTED] 53844.031

[GRAPHIC] [TIFF OMITTED] 53844.032

[GRAPHIC] [TIFF OMITTED] 53844.033

[GRAPHIC] [TIFF OMITTED] 53844.034

[GRAPHIC] [TIFF OMITTED] 53844.035

[GRAPHIC] [TIFF OMITTED] 53844.036

[GRAPHIC] [TIFF OMITTED] 53844.037

[GRAPHIC] [TIFF OMITTED] 53844.038

[GRAPHIC] [TIFF OMITTED] 53844.039

[GRAPHIC] [TIFF OMITTED] 53844.040

[GRAPHIC] [TIFF OMITTED] 53844.041

[GRAPHIC] [TIFF OMITTED] 53844.042

[GRAPHIC] [TIFF OMITTED] 53844.043

[GRAPHIC] [TIFF OMITTED] 53844.044

[GRAPHIC] [TIFF OMITTED] 53844.045

[GRAPHIC] [TIFF OMITTED] 53844.046

                                 <all>

</pre></body></html>
